IN THE
SUPREME COURT OF THE UNITED STATES
______________
IN RE ROBERT SARHAN AND ANABELLA SOURY

Petitioners,

______________________________
On Petition for a Writ of Mandamus and
Writ of Prohibition to the Eleventh
Circuit Court of Appeals for the Eleventh Circuit
________________________________
PETITION FOR WRIT OF MANDAMUS &
PETITION FOR WRIT OF PROHIBITION
________________________________

ARTHURJ.MORBURGER
Attorney for Appellants
19 W. Flagler St. Ste. 404
Miami, FL 33130
Tel. No. 305-374-3373
Amorburger@bellsouth.net
Fl . Bar No. 157287
_Isl Arthur J. Morburger
April 27, 2020

QUESTIONS PRESENTED
Should a writ of mandamus be issued to the Eleventh Circuit, requiring it
(A) to disregard matters dehors the record,
(B) to rule without regard to matters dehors the record,
(C) to reverse the order of the district court,
(1) which granted a motion to dismiss the complaint based on a matter, which was:
(i) outside the “four corners” of the complaint, and
(ii) dehors the record, and
(2) which disallowed requested relief from a state-court judgment under the RookerFeldman Doctrine, where the judgment was entered:
(a) without notice to Anabella Soury,
(b) without affording to her an opportunity
(i) to appeal or
(ii) to be heard on the due-process violations, and
(c) without affording to Robert Sarhan an opportunity to be heard on those
due-process arguments, and
(D) Mandating that the district court accept jurisdiction to grant relief from
the state court judgment in regard to the due-process challenges to
that judgment that the state court would not hear, notwithstanding the
Rooker-Feldman Doctrine?
(E) Is mandamus available to mandate relief from orders that recite reliance
on items dehors the record and violate the ministerial duty to rule just on
items within the record?
(F) Is mandamus available to mandate relief from an order of dismissal of a
complaint that recites reliance on items dehors the “four corners” of the
complaint and violate the ministerial duty to rule just on items within
those four corners?
(G) Is mandamus available to mandate that the court take jurisdiction where
it declined to do so because of a misinterpretation of the Rooker-Feldman
Doctrine?
(H) Is a judgment of foreclosure against Anabella Soury and Robert Sarhan,
as owners of the foreclosed property, a denial of due process where that
judgment was entered without serving, and without notice to, Anabella
Soury or her attorney and without affording to Robert Sarhan an
opportunity to be heard?
Should a writ of prohibition be issued to the Eleventh Circuit, prohibiting it:
(I) From considering any matters dehors the record, and
ii

(J) Considering matters outside the “four corners” of the complaint?
(K) Is prohibition available to prohibit reliance on items outside the record?
(L) Is prohibition available to prohibit reliance on items outside the “four
corners” of the complaint in ruling on a motion to dismiss the complaint?
(M) Is a judgment of foreclosure against Anabella Soury and Robert Sarhan,
as owners of the foreclosed property, a denial of due process and void
where that judgment was entered without serving, and without notice to,
Anabella Soury or her attorney and without affording to Robert Sarhan
an opportunity to be heard?
(N) Should a writ of certiorari be issued to the Eleventh Circuit determining
that the state-court judgment was entered without notice to Anabella
Soury, without any opportunity to be heard, was a denial of due process,
and was void, and that the district court should order the state court to
invalidate the judgment and that the relief hereinabove mentioned in
regard to mandamus and prohibition should be granted via certiorari ?
(O) Should sanctions be permitted to be based on matters dehors the record?

iii

CERTIFICATE OF INTERESTED PERSONS
AND CORPORATE DISCLOSURE STATEMENT
Pursuant to Eleventh Circuit Rule 26.1-1, counsel of record for Appellant,
certifies that, to the best of their knowledge, the following is a complete list of all
trial judges, attorneys, persons, associations of persons, firms, partnerships, or
corporations that have an interest in the outcome of this case or appeal, including
subsidiaries, conglomerates, affiliates, parent corporations, any publicly held
corporation that owns 10% or more of the party's stock, and other identifiable
legal entities related to a party:
1. Raul Gastesi, Esq. Attorney for H & H Investors, Inc. the Appellee
2. Judge Darrin P. Gayles U.S. District Judge Southern District of
Florida
3. Judge Jon Gordon, Eleventh Judicial Circuit
4. Ralph Halim, President of H & H Investors, Inc. the Appellee
5. Judge Michael Hanzman, Eleventh Judicial Circuit
6. Robert L. Moore, Attorney for the Anabella Soury, Appellant
7. Arthur J. Morburger, Esq. Attorney for Robert Sarhan, Appellant
8. Robert Sarhan, the Appellant
9. Judge Robert Scola U.S. District Judge Southern District of Florida
10. Judge Rodney Smith U.S. District Judge Southern District of Florida
11. Anabella Soury, the Appellant

iv

TABLE OF CONTENTS
QUESTIONS PRESENTED

ii

CERTIFICATE OF INTERESTED PERSONS AND CORPORATE
DISCLOSURE STATEMENT

iv

OPINION BELOW

1

JURISDICTION

1

STATUTORY PROVISIONS INVOLVED

2

INTRODUCTION

2

STATEMENT OF THE CASE

5

REASON FOR GRANTING THE PETITION
(1) Robert Sarhan And Anabella Soury Cannot
Obtain Relief From Any Other Court Or Forum

14
15

A. No Other Court Can Grant The Relief It Seeks

15

(2) The Misapplication Of The Rooker-Feldman Doctrine
And The Court Excursion Outside The Record Are
Clear And Undisputed Bases For Issuing The Writs

15

THE FOREGOING PRECEDENCE ARE MANDATORY NOT DISCRETIONARY
AND ARE AMENABLE TO WRIT OF MANDAMUS AND PROHIBITION RELIEF
I.

Panel Opinion Consists Of Matters Dehors The Record And
Outside The “Four Corners” Of The Complaint

II.

The Judgment, Amended Judgment, And Appeal Were All
18
Prosecuted Without Any Notice To Anabella Or Her Attorney
Robert L. Moore, Thereby Depriving The State Court Of
Jurisdiction Over Her Person And Rendering The Rooker-Feldman
Doctrine Inapplicable To Her

III.

Rooker-Feldman Doctrine Has No Application To A State Court
20
Proceeding Where Anabella Had No Reasonable Opportunity
To Raise Her Federal Claims Or To Appeal, And Has No Application
To Florida Rule Of Civil Procedure Rule 1.540(B)(4) Motion Proceedings
v

16

IV.

The Court's Reliance On Judge Scola's Remarks In Regard To
The Removal Overlooks The Fact That Anabella Was Not A
Party To The Removal And Was Not A Party To The Appeal To
Which Judge Scola Referred

24

V.

Rooker-Feldman Doctrine Has No Application To Any

25

Rule 1.540(B) Proceeding Or To Any Other Criminally Sanctioned
Proceeding In Which Robert Sarhan Or Anabella Did Not And Will
Not Have A Reasonable Opportunity To Raise Their Federal Claims
In The State Court

VI.

The Answer Brief And Appellee's Appendix Are Dehors The Record 26
Stray Outside The Four Corners Of The Complaint, And Do Not
Dispute The Complaint's Allegations

VII.

The Answer Brief's Arguments Are Misdirected Away
From Appellant's Arguments And Their Supporting Citations
And Therefore No Reply Is Due

27

(3) The Eleventh Circuit Court Of Appeals Order Creates Exceptional
28
Circumstances In Warranting Writ Of Mandamus And Writ Of Prohibition
CONCLUSION

29

CERTIFICATE OF COMPLIANCE

30

c
CERTIFICATE
OF SERVICE

30

vi

TABLE OF CONTENTS – Continued
APPENDICES
APPENDIX A1: Eleventh Court of Appeal Docket
APPENDIX B1: Appellants Emergency Initial Brief
APPENDIX C1: Supplemental Appendix of the U.S. District Court
A. U.S. District Court Docket Sheet
Judge Gayles Order, Exhibit A, Docket No. 5
Judge Gayles Order, Exhibit A, Docket No. 7
B. Emergency Complaint to the U.S. District Court
C. Final Judgment of Foreclosure
D. Amended Final Judgment of Foreclosure
E. Emergency Motion To Reconsider and Set Aside Its Wrongful
Order of Dismissal And Grant The Relief Prayed For in the
Complaint
F. Declaration of Anabella Soury
G. Order of Judge Hanzman
H. Restraining Orders Dead Animals
APPENDIX D1: Appellees Motion for Sanctions
APPENDIX E1: Appellee’s Answer Brief
APPENDIX F1: Appellant’s Reply Brief
APPENDIX G1: Per Curiam Ruling by Eleventh Circuit
APPENDIX H1: Motion for Sanctions Granted
APPENDIX I1: Appellants Motion For Rehearing and Rehearing En Banc
APPENDIX J1: Petition for Rehearing En Banc Denied

vii

TABLE OF AUTHORITIES
Am. United Life Ins. Co. v. Martinez, 480 F.3d 1043 (11th Cir. 2007)…………………..4

Association For Disabled Americans, Inc. v. Amoco Oil Co., 211………………….19

F.R.D: 457, 472 (S.D.Fla.2002)

Bharucha v. Reuters Holdings PLC, 810 F. Supp. 37, 40 (E.D.N.Y.,1993)..23,24
Bonner v. City of Prichard, 661 F.2d 1206 (11 Cir. 1981)………………………………..16
Casale v. Tillman, 558 F.3d 1258 (11th Cir. 2009)……….…………..4,9,12,14,18,24,28
Cheney v U.S. District Court for District of Columbia, 542 U.S. 367, 390 (2004)…..14
District of Columbia Court of Appeals v. Feldman, 460 U.S. 462 (1983)………………24
Ex-parte Easton, 96 US 68 (1877)…………………………………………………...……3,16
Fiber Crete Homes, Inc. v. Division of Administration, 315 So. 2d…………………...21
492, 493 (Fla.Dist.Ct.App.1975)

Garcia v. American Marine Corp. 432 F.2d 6 (5 Cir. 1970)………………………………16
Gomer ex rel. Gomer v. Philip Morris Inc., 106 F.Supp.2d 1262, 12671…………22
fu. 5 (M.D. Ala. 2000)

Grossman v. Nations Bank, N.A., 225 F.3d 1228, 1231 (11th Cir. 2000)14,16,17,19,26
Hassenflu v. Pyke, 491 F.2d 1094 (5th Cir. 1974)………………………………….….3,18
Hudgins v. Kemp, 59 US 530 (1855)………………………………………………...3,16,17

In re Blonder, 2015 WL 5773230, at *11 (Bkrtcy.N.D.Ga. 2015)………..…..19
Miami Bank & Trust Co. v. Rademacher Co., 5 So.2d 63, 64 (Fla. 1941)……..…..3,19
Pompano Atlantis Condominium Association v .Merlino, 415So. 2d………………....21
153,154 (Fla. 4th DCA.1982).

Sanzone v. Hartford Life Acc. Ins. Co., 519 F. Supp. 2d 1250, 1252 …………………26
(S.D. Fla. 2007)

viii

Scelta v. Delicatessen Support Services, Inc., 57 F. Supp. 2d 1327, 1335……17,26

(M.D. Fla. 1999)

St. George v. Pinellas County, 285 F.3d 1334, 1337 (11th Cir. 2002)....14,16,17,19,26

Stearns v. Hertz Corp. 326 F.2d 405, 408 (8 Cir.), cert. den. 377 U.S. 934 (1964)….16

Taylor v. Sturgell, 128 S. Ct. 2161, 2174 (2008)…………………………………….18
Thurman v. Judicial Correction Services, Inc., 760 Fed. Appx. 733, 737………….16,22
(11th Cir. 2019)

U.S. v. Hay, 685 F.2d 919, 921(5th Cir. 1982)………………………………………..……16

.

U.S. v. Addonizio, 449 F.2d 100, 102 (3 Cir. 1970)…………………………………….….16
U.S. v. Camejo, 929 F.2d 610 (11 Cir. 1991)………………………………………..….3,16
United States v. Green, 487 F.2d 1022 (5th Cir. 1973)…….…………………………….16
U.S. v. Napper, 887 F.2d 1528, 1534 (11 Cir. 1989)…………………..…...4,15,21,22,24
Waley v. Johnston, 316 US 101 (1942)………………………………………………3,16,26
Woods v. Orange County, 715 F.2d 1543, 1548 (11 Cir. 1983)……….4,15,20,21,22,24
cert denied 467 US 1210

CONSTITUTIONAL PROVISIONS
USC Const. Amend. 14, § 1…………………………………………………………………...2

STATUTES
28 U.S.C. § 1651(a)…………………………………………………………………………..1,2
28 USC § 2283…………………………………………………………………………………..4
Fla. Rules of Civ. P. Rule 1.540(b)(4)………………………...3,4,5,11, 12,13,14,21,24,25
Fla. Rules of Civ. P. Rule 1.540(b)(3)……………………………………..……8,25

ix

IN THE
SUPREME COURT OF THE UNITED STATES
______________
IN RE ROBERT SARHAN AND ANABELLA SOURY

Petitioners,

______________________________
On Petition for a Writ of Mandamus and
Writ of Prohibition to the Eleventh
Circuit Court of Appeals for the Eleventh Circuit
________________________________
PETITION FOR WRIT OF MANDAMUS &
PETITION FOR WRIT OF PROHIBITION
________________________________
The Petitioners, Robert Sarhan and Anabella Soury respectfully petition for a
writ of mandamus and writ of prohibition to vacate the orders of the Eleventh Circuit
that are dehors the record. This writ will be in aid of the court's appellate jurisdiction
and are exceptional circumstances that warrant exercise of the Supreme Court's
powers and that adequate relief cannot be obtained in any other forum or from any
other court.
OPINION BELOW
The orders of the Eleventh Circuit improperly impose substantial sanctions
against the Petitioners and affirmed the dismissal of the Complaint based on matters

dehors the record and outside of the “four corners” of the Complaint.” Exhibit G1 &
H1, J1.
JURISDICTION
The Eleventh Circuit entered two orders on 01/09/2020 and one order
03/11/2020, denying the Petition for Rehearing En Banc. This Court’s jurisdiction
rests on 28 U.S.C. § 1651(a).

1

STATUTORY PROVISIONS INVOLVED
“USC Const. Amend. 14, § 1 provides: All persons born or
naturalized in the United States, and subject to the jurisdiction thereof,
are citizens of the United States and of the Sta
the wherein they reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws. 28 U.S.C. § 1651(a)
provides.”
“Final judgments or decrees rendered by the highest court of a
State in which a decision could be had, may be reviewed by the Supreme
Court by writ of mandamus and writ of prohibition where the validity of
a treaty or statute of the United States is drawn in question or where
the validity of a statute of any State is drawn in question on the ground
of its being repugnant to the Constitution, treaties, or laws of the United
States, or where any title, right, privilege, or immunity is specially set
up or claimed under the Constitution or the treaties or statutes of, or
any commission held or authority exercised under, the United States.”
INTRODUCTION
Robert Sarhan and Anabella Soury seek a writ of mandamus and writ of
prohibition to review the orders of the Eleventh Circuit in which they exceeded their
own authoritative decision and the authoritative decision of the U. S. Supreme Court.
As a direct consequence, created the exceptional circumstances that warrant writ of
mandamus and writ of prohibition.
The Panel’s consistent citation to, and reliance on, matters entirely outside the
“four corners” of the complaint and dehors the record.
The underlying proceedings is an Appeal dehors the record of an order
dismissing the Complaint based on matters outside of the “four corners” of the
Complaint. It appears that the Panel has adopted the Appellee’s Answer Brief, “word
for word,” in which the Answer Brief strays outside of the “four corners” of the

2

Complaint and its entire 166-page Appendix are also dehors the record. The
Appellee’s Answer Brief does not dispute any of the Complaints Allegations.
The Fifth and Eleventh Circuits and the U.S. Supreme Court rejected this
practice. Hassenflu v. Pyke, 491 F.2d 1094 (5th Cir. 1974) [“it is inappropriate to
base an appellate opinion on assertions dehors the record,”] and that holding is cited
with approval in U.S. v. Camejo, 929 F.2d 610 (11 Cir. 1991), Hudgins v. Kemp, 59
US 530 (1855), Ex-parte Easton, 96 US 68 (1877) and Waley v. Johnston, 316 US 101
(1942).
The Eleventh Circuit And The District Court Misapplied The Rooker-Feldman
Doctrine By Foreclosing The Petitioners Attempt In State Court To Raise Due
Process Arguments
The Eleventh Circuit Panel and the U.S. District Court both incorrectly applied
the Rooker-Feldman Doctrine, which does not apply in Fla. Rules of Civ. P. Rule
1.540(b)(4) cases or void judgments, where Anabella Soury and her attorney Robert
L. Moore were not served with the Final or Amended Final Judgments of Foreclosure
and did not find out till 11 months later, where the time to appeal has long past, the
certificates are on page 6 below and judgments and certificates are in Exhibit C1 (C
& D). Anabella did not file a notice of appeal. She was not served a copy of the brief.
She was not listed as having been served with the appellate decision or the appellate
mandate and filed a Declaration. Exhibit C1(F) Therefore, Anabella Soury had no
opportunities to raise her federal claims in the state court or on appeal. The Third
District Court of Appeals had no jurisdiction over non-party Anabella Soury, thereby
depriving the court of jurisdiction over her person, under Miami Bank & Trust Co. v.

3

Rademacher Co., 5 So.2d 63, 64 (Fla. 1941), and rendering the Rooker-Feldman
Doctrine inapplicable to her.
The state court, Judge Michael Hanzman denied Robert Sarhan’s attorney,
Arthur, J. Morburger from oral argument on his “Emergency Motion for Relief from
Judgment as Void,” a violation of Robert Sarhan’s due process rights.
The Eleventh Circuit Panel and the District Court cites Casale v. Tillman, 558
F.3d 1258 (11th Cir. 2009) and Am. United Life Ins. Co. v. Martinez, 480 F.3d 1043
(11th Cir. 2007), but fails to note that there was not involved in those cases a Rule
l.540(b) or a void judgment proceeding and that those cases did not recede from either

Woods v. Orange County, 715 F.2d 1543, 1548 (11 Cir. 1983) cert denied 467 US 1210
and U.S. v. Napper, 887 F.2d 1528, 1534 (11 Cir. 1989). Moreover, in regard to
footnote 2 to the Panel opinion, 28 USC § 2283 applies here since the federal court
has jurisdiction under Woods and Napper.
The Panel decision conflicts with Rooker-Feldman Doctrine as construed by
the Eleventh Circuit by Woods v. Orange County, 715 F.2d 1543, 1548 (11 Cir. 1983)

cert denied 467 US 1210 and as later adopted by the Eleventh Circuit, U.S. v. Napper,
887 F.2d 1528, 1534 (11 Cir. 1989) (holding that the federal court has jurisdiction to
grant relief to a litigant who in the state court was barred from arguing due process
issues).
Not only has the Panel adopted the Appellee’s Answer Brief “word for word”
which dehors the record and outside of the “four corners” of the complaint, but the
Panel has also relied on Judge Hanzman’s Order, his involvement was post-judgment

4

1.540(b) “Motions For Relief From The Judgment Which Is Void.” Judge Hanzman,
violated the Constitutional Rights of both Anabella and Robert, by not allowing
Arthur Morburger to argue the void judgment, motion in which he wrote, but allowed
the opposing party to argue the motion. As 50% owner of the Property, where
Anabella and her attorney were not served with the final and Amended final
judgments of foreclosure and the time for the appeal has past, the judgment is void
under Fla Statute 1.540(b).
STATEMENT OF THE CASE
Plaintiffs/Appellants ROBERT SARHAN and ANABELLA SOURY A/K/A
ANABELLA SARHAN, sued Defendant/Appellee H & H Investors, Inc., in the United
States District Court Southern District of Florida in Case No. 19-11177 EXHIBIT B and
alleged:
“l.
The Court has jurisdiction of this action pursuant to 28
U.S.C.1343 and 2201.
2.
The venue of this action is properly in Miami- Dade County, Florida because
Defendant has its office in Miami-Dade County and is a Florida corporation.
3.
Plaintiffs own and reside at premises located at 22795 S.W. 212th Avenue Miami,

Florida.
4.
On June 23, 2008, Plaintiff Robert Sarhan signed a promissory note, payable
to Defendant and Plaintiffs signed a mortgage of the Homestead Property.
5.
Defendant is suing Plaintiffs for foreclosure in Miami-Dade County, Florida
Circuit Court in Case No. 2012-07970, as to their Homestead Property in the area of
SW Miami Dade County, Florida.
6.
In that case, the court entered a Judgment and an Amended Judgment, copies
of which are attached hereto. Exhibit C1 (C & D)
7.
The court did however fail to serve copies of those Judgments on Plaintiff
Anabella Soury or her attorney Robert L. Moore and the time for appeal elapsed before
they learned of the Judgments.
8.
The aforementioned Final Judgment of Foreclosure contained the following
Certificate of Service that specified Raul Gastesi and Michael Cotzen were served with
copies, not Robert L. Moore, attorney for Anabella Soury: Exhibit C below

5

6

are attached hereto, claiming that the unserved Judgments were denials of due
process and were void. Exhibit C1(E)(F)
12.
That Motion “ Emergency Motion for Relief from Judgment as Void” came on
for hearing before Circuit Court Judge Michael Hanzman on June 20, 2019.
13.
At the hearing, Judge Hanzman precluded counsel for Plaintiff Robert
Sarhan from participating in the oral argument, in which Defendant's counsel
was permitted to participate, and thereby denying Plaintiffs Robert Sarhan due
process of law, ruling in advance that Robert Sarhan had no interest in the
arguments raised in the Motion.
14.
At that hearing, Judge Hanzman announced that he was denying that
Motion for Fraud on the Court and, in a further denial of due process, further
ordered that Plaintiff Robert Sarhan and his attorney shall file nothing further
in the case or be subject to the threat of sanctions. The ensuing order copy, which
is attached hereto, likewise prohibited any pro-se filings" in the case, with a
"criminal contempt" threatened. Exhibit C1(G)
15.
That order also determined that the Final Judgment entered in that case
would not be "void," even if Anabella Soury's claim that neither she nor her
attorney were not served therewith were true.(As reflected in the Certificate of
Service at the end of the judgments that is copied herein above) In fact, neither
Anabella nor her attorney were served with the Final Judgment or the Amended
Final Judgment, Robert Sarhan took an appeal from those Judgments but did
not serve Anabella or her attorney, Anabella did not participate in that appeal.
However, at page 2 of that order it is wrongly stated that "Defendants [plural]
appealed that Final Judgment" and that the appellate ruling of affirmance is
binding on "Defendant" Anabella- all in violation of her due process rights to
be served and to have a reasonable opportunity to be heard. The order also
ruled in violation of Anabella's due process rights - that no further motions
"collaterally attacking the Final Judgment or Amended Final Judgment
wound be heard despite the fact that neither Anabella nor her attorney were
served with those Judgments. The one-year time limit for filing a Rule
1.540(b)(3) fraud-on-the-court motion for relief from judgment does not apply
to her because of that lack of service, so that it would be a denial of due process
to treat fraud-on-the-court as having been adjudicated as to her. Attached
hereto is Robert Sarhan's Motion for Relief from Judgment for Fraud on the
Court, which was denied as untimely and on the merits against Robert Sarhan
only. Robert Sarhan has filed previous Motion with prima facie evidence of
Fraud on the Court which were timely and never heard. On April 16, 2019
Judge Rodney Smith granted a two-hour hearing, with evidence, to present
the "Motion to vacate the Judgment for Fraud on the Court," However Judge
Smith was transferred to the United States District Court before the June 17
hearing and his replacement, Judge Hanzman, did not abide by what Judge
Smith had scheduled and instead held a different prejudicial hearing without
evidence in violation of due process and without notice and thereby ruled the
motion lacked merits. Since this case was removed to Federal Court and

7

remanded back to State Court the Motion and the case was stayed during
bankruptcy, the time period was thereby stayed and the motion was not untimely.
16.
Anabella intends to challenge the unserved Judgment and Third
District decision as not binding on her and to move for relief from the
unserved judgment based on fraud; and Plaintiffs intend to file an appeal
from the denial of that Motion and to file a motion for stay pending appeal in
the circuit court, but have some hesitancy and fear in doing so in light of the
improper threat of sanctions.
17.
On May 6, 2014 Plaintiff had to file an action for restraining order against
Ralph Halim for "Stalking his young son and himself. Following Robert Sarhan and
his minor son while on a Sunday motorcycle ride around- the neighborhood,
Halim, president of H&H Investors, stalked them, while in a car, and put them
in fear of their lives. Weeks later, on June 25, 2014, Halim placed dead animals
in front of Plaintiffs' gate. Then again on June 27, 2014 Halim placed dead
animals at Plaintiffs' front gate The placement of dead animals and the stalking
were Halim's motive to force Plaintiffs' family to move from their - mortgaged
premises, their home for 25 years. This enhances Plaintiff’s fear of sanctions
retaliation. Exhibit C1(H)
18.
On June 20, 2019 at 12:31pm, Ralph Halim called Plaintiff Robert
Sarhan on his cell phone while he was at his attorney's office; the attorney also
heard his remarks while on speaker phone. Halim's remarks were: "hey you
mother fucker I haven't started with you yet, you just wait mother fucker I
am just getting started," This further enhances the aforementioned fear of
sanctions retaliation.
19. As a result of those threats and Plaintiffs have suffered mental anguish
and have expended funds to provide a home for Plaintiffs' minor son.
Wherefore, Plaintiffs demand on an emergency basis a judgment against
Defendants (1) declaring that the aforementioned Motion for Relief from
Judgments as Void should be reheard with the participation of Robert
Sarhan's attorney; (2) declaring that the unserved Judgments are due process
violations of the rights of Plaintiffs and are void; that Anabella Sarhan was not
precluded from moving for relief from the Judgment based on a claim of fraud,
(3) enjoining the imposition of any sanctions against Plaintiffs or their attorneys
for the filing of an appeal or for the filing of any motion to stay pending appeal; (4)
enjoining the Florida State court from precluding Anabella from moving for relief
from the unserved Judgment based on fraud and enjoining reliance on the Third
District decision .of affirmance as law of the case or res judicata against Anabella,(5)
enjoining the threatened criminal contempt proceedings, (6) enjoining Defendants
from any enforcement of the Judgments or of any orders derived from the Judgments,
(7) awarding to Plaintiffs and against Defendants monetary damages, subject to the
right to jury trial, to whatever extent authorized by law, (8) an emergency hearing
and restraining order directing the clerk and the parties to stay the foreclosure sale
in advance of the scheduled June 25, 2019 foreclosure sale.”

8

20.

Quoted hereinabove and inserted into the quotations of the complaint at pages

6 above are the Certificates of Service that appeared in the Final judgment Exhibit
C1(C), certify service of process on Raul Gastesi attorney for the Plaintiff and Michael
Cotzen attorney for Robert Sarhan in the Final Judgement. In the Amended Final
Judgement Exhibit C1(D), certify service of process on Raul Gastesi attorney for the
Plaintiff and Cotzen successor, Arthur J. Morburger, attorney for Robert Sarhan.
Nowhere in the Certificates did their appear in reference to Anabella Soury or her
attorney Robert L. Moore. Included as an exhibit to the complaint was Soury’s
Declaration verifying that she did not receive service. Appellants’ Exhibit C1(F).
21.

Judge Gayle dismissed the complaint sua sponte, ruling:
“Plaintiff filed their Emergency Complaint on June 21, 2019, seeking
review of the latest Florida state court order denying them relief from a
foreclosure judgment: This case shall be dismissed as Plaintiffs were
recently denied the same sought relief on the same substantive
issues presented here. Sarhan, et al. V. H & H Investors, Inc. et al.,
19-CV- 20368-RNS, ECF Nos. 37 & 38 (S.D. Fla. April 1, 2019). In
denying Plaintiffs motion to appeal informa pauperis, Judge Scola
noted that Plaintiff's claims are frivolous and Mr. Sarhan is using
the federal courts to delay the foreclosure sale and to disparage those who
feel have wronged him. "Id. at ECF No. 37. Further, this Court lacks
jurisdiction over these claims pursuant to the Rooker -Feldman
Doctrine. Casale v. Tilman, 558 F.3d 1258, 1260 (11th Cir. 2009). The

doctrine bars federal claims raised in the state court and claims
..inextricably intertwined if it would 'effectively nullify' the state
court judgment, or [if] it succeeds only to the extent that the state
court wrongly decided the issues. Casale, 558 F. 3d at 1260. Plaintiffs
seek to do just that. Accordingly, this case is dismissed without
prejudice.” Exhibit C1(A)
22.

On June 30, 2019, Plaintiff then filed a motion for rehearing “Emergency

Motion To Reconsider and Set Aside Its Wrongful Order of Dismissal And Grant The
Relief Prayed For in the Complaint” of the above-quoted ruling. The arguments

9

raised in that motion were: The Court went outside the “four corners” of the
Complaint in citing to Judge Scola’s order and the Rooker-Feldman Doctrine did
not apply. Exhibit C1(E)
23.

On July 1, 2019 Judge Gayle denied the motion for reconsideration without

opinion. Exhibit C1(A) Docket No. 7
24.

The Appeal was filed.

25.

In this Emergency Initial Brief, Exhibit B1 the Appellant argued that:
“I. The state court judgment, amended judgment,
and state court appeal were all prosecuted without any notice to Anabella
or her attorney Robert L. Moore, thereby depriving the state court of
jurisdiction over her person and rendering the Rooker-Feldman Doctrine
inapplicable to her.
II. Rooker-Feldman Doctrine has no application to a state court proceeding
where Anabella had no reasonable opportunity to raise her federal claims
or to appeal and has no application to rule Fla. R. Civ. P. Rule 1.540(b)
motion proceedings.
III. The court's reliance on Judge Scola's remarks in regard to the
removal overlooks the fact that Anabella was not a party to the removal
and was not a party to the appeal to which Judge Scola referred.
IV. Rooker-Feldman Doctrine has no application to any rule l.540(b)
proceeding or to any other criminally sanctioned proceeding in which
Robert Sarhan or Anabella did not and will not have a reasonable
opportunity to raise their federal claims in the state court.”

26.

On October 21, 2019, the Attorney for the Appellee, Raul Gastesi, Jr. filed an

Answer Brief and its 166-page Appendix, which is dehors the lower court record. The
Answer Brief and Appendix also impermissibly stray outside the allegations of the
"four corners” of the complaint. The Appellee’s Answer Brief does not dispute any of
the Complaints Allegations. This misconduct by Attorney Gastesi has been the norm
since the beginning of this case, Exhibit E1.

10

27.

According to the U.S. District Court Docket Exhibit C1(A), the Appellee

attorney Raul Gastesi, Jr., did not file one document in the U.S. District Court,
No Briefs and No Appendix, yet he filed a 166-page Appendix which is dehors the
record on Appeal. There are only 7 entries on the Docket, none from the Appellee.
28.

On November 21, 2019, the Appellant filed his Reply Brief. The Appellants

Reply Brief pointed out to the Eleventh Circuit, that the Appellee’s Answer Brief
and Appellee's 166-page Appendix are dehors the record, stray outside the “four
corners” of the complaint, and do not dispute the complaint's allegations. The Panel
failed and did nothing about Attorney Raul Gastesi misconduct, but adopted his
Answer Brief, which dehors the record and outside of the four corners of the
complaint. .
29.

The Answer Brief still does not point to anything in the instant record that

disputes the accuracy of any portion of the complaint's allegations, in general, or
any portion of its particular allegation that neither Anabella nor her attorney,
Robert L. Moore received any timely notice of the entry or prosecution of the
Foreclosure Judgment or the Amended Foreclosure Judgment.
30.

Appellee does not focus on the legal consequences of the alleged lack of

notice, the resulting lack of state-court jurisdiction, and the resulting
inapplicability of the Rooker-Feldman Doctrine, analyzed in Appellants'
Argument I or to its cited precedents.
31.

In like manner, Appellee did not respond to Appellants' Argument II, that

the Rooker-Feldman Doctrine does not apply to Fla. R. Civ. P. Rule l.540(b)

11

motion proceedings or where Anabella allegedly had no reasonable opportunity
to raise her federal claims or to its cited precedents. Already noted, is the absence
of any Answer Brief response to Appellants' Argument IV, concerning the
inapplicability of the Rooker-Feldman Doctrine to Rule Fla. R. Civ. P. Rule l.540(b)
motion proceedings and to Appellants' cited case precedents.
32.

The Answer Brief does in fact “not respond” to any of Appellants' citations.

Appellee's Table of Citations list only one of those citations , Casale v. Tillman, 558
F.3d 1258, 1260(11th Cir. 2009), and mistakenly lists it at pages "18" and "19" of
the Answer Brief, but those pages have no such citation nor do any of the other
pages of the Brief have any such citation.
33.

On January 9, 2020, the Eleventh Circuit Court of Appeals panel ruled Per

Curiam and basically adopted or copied the Appellee’s Answer Brief word for
word, which dehors the record on Appeal and is outside of the “four corners” of
the Complaint.
34.

Nothing in the record or in the complaint suggested that Appellants “owned a

tree farm” or were “divorced” or had a “separation agreement” or any “divestiture” of
any interest in the tree farm or that “multiple judges” considered Soury’s claim that
she had an interest in the property. Those recitations were presumably derived from
Appellee’s Appendix, which was dehors the record. No judge “considered and rejected
Soury’s claim that she had an interest in the property.” State court judge Hanzman
included in his order, Appellants’ Exhibit C1(G), a footnote, referring to the deed to
Soury, but did not declare that deed to be invalid.

12

35.

The Panel failed to take note of the allegations of ¶ 11 of the complaint

(Appellants’ Exhibit B) that Judge Hanzman precluded Sarhan from presenting any
argument in the Motion “Defendants Emergency Motion For Relief From Judgment
As Void” and refused to hear the “Motion To Vacate Judgment of Foreclosure Due To
Fraud On The Court.” The Panel decision entirely ignored the Final and the Amended
Final Judgment of Foreclosure and the named upon whom the judgments were
served, where Anabella Soury and her attorney, Robert L. Moore were not served
with the Final or Amended Judgment of Foreclosure and therefore the Judgment is
Void, Under Florida Statue 1.540(b) and the Rooker Feldman Doctrine does not apply
to Rule 1.540(b) cases. Exhibit C1 (C & D).
36.

Included as an exhibit to the complaint was Soury’s Declaration verifying that

she did not receive service. Exhibit C1(F). In the appeal from the Final Judgment and
Amended Final Judgment of Foreclosure, Anabella was not a party. She had no notice
of the entry of those Judgments. She did not file a notice of appeal. She was not served
a copy of the brief. She was not listed as having been served with the appellate
decision or the appellate mandate. The Third District had no jurisdiction over nonparty Anabella Soury. Its decision was not at all binding on her. Contrary to the Panel
decision, there is nothing in the record or in the complaint regarding the Panel’s
statement that the Third District allegedly “affirmed the trial court’s ruling.”
37.

These facts are pointed out in the Motion for Rehearing and Rehearing En

Banc that Appellant filed. Exhibit I1 In this Motion, the Appellants points out
that the Panel decision conflicts with decisions of the Eleventh Circuit to which

13

the petition is addressed, with decisions of the Fifth Circuit, which the Eleventh
Circuit has adopted and conflicts with authoritative decisions of the United
States Supreme Court and other United States Court of Appeals that have
addressed this issue.
38.

In the Motion for Rehearing and Rehearing En Banc, the Appellant points

out the Panel’s consistent citation to, and reliance on, matters entirely outside
the four corners of the complaint and dehors the record. That appears to have
adopted Appellee’s Answer Brief word for word and Appellee’s outside-the-record
Appendix.
39.

Moreover, the Panels opinion is replete with records outside the four corners

of the complaint that was dismissed. The Eleventh Circuit in St. George v. Pinellas

County, 285 F.3d 1334, 1337 (11th Cir. 2002), held that “‘the scope of the review must
be limited to the four corners of the complaint,” quoting Grossman v. Nations Bank,

N.A., 225 F.3d 1228, 1231 (11th Cir. 2000).
40.

Moreover, the Eleventh Circuit improperly placed it imposition of sanctions on

its excursion outside the record. All 166-page of the Appellee’s Appendix are dehors
the record.
REASON FOR GRANTING THE PETITION
41.

The Court in Cheney v U.S. District Court for District of Columbia, 542 U.S.

367, 390 (2004) made clear that the following three conditions must be satisfied before
such an extraordinary writ must issue: (1) the party must have no other adequate
means to attain the relief he deserves, (2) the party must satisfy the burden of

14

showing that his right to issuance of the writ is clear and indisputable, and (3) the
issuing court must be satisfied that the writ is appropriate under the circumstances.

Id. at 380-81. Petitioners Robert Sarhan and Anabella Soury satisfies the three
conditions set out in Cheney.
(1)

ROBERT SARHAN AND ANABELLA SOURY CANNOT OBTAIN RELIEF
FROM ANY OTHER COURT OR FORUM

42.

The Petitioners have exhausted any avenue of relief by a Motion for Rehearing

and Rehearing en banc that was denied. Moreover, the Appeal from the order of
dismissal is final and has finally been affirmed by the Eleventh Circuit. Moreover,
the sanctions imposed by the Eleventh Circuit are also final and are not appealable.
A. NO OTHER COURT CAN GRANT THE RELIEF IT SEEKS
43.

No other court has the power to vacate the Eleventh Circuit Court of Appeals

Orders. Other federal and state trial and appellate courts have no jurisdiction over
the Eleventh Circuit Court of Appeals.
(2)

THE MISAPPLICATION OF THE ROOKER-FELDMAN DOCTRINE AND
THE COURT EXCURSION OUTSIDE THE RECORD ARE CLEAR AND
UNDISPUTED BASES FOR ISSUING THE WRITS.

44.

In this case, the Eleventh Circuit exceeded its own authoritative decision and

the authoritative decision of the United States Supreme Court as a direct
consequence created the exceptional circumstances that warrant writ of mandamus
and writ of prohibition. The Panel decision conflicts with Rooker-Feldman Doctrine
as construed by the Eleventh Circuit by Woods v. Orange County, 715 F.2d 1543,
1548 (11 Cir. 1983) cert denied 467 US 1210 and as later adopted by the Eleventh
Circuit, U.S. v. Napper, 887 F.2d 1528, 1534 (11 Cir. 1989) (holding that the federal

15

court has jurisdiction to grant relief to a litigant who in the state court was barred
from arguing due process issues). The Panel decisions also conflicts with the following
precedence barring matters outside the record:

Stearns v. Hertz Corp. 326 F.2d 405, 408 (8 Cir.), cert. den. 377 U.S. 934 (1964)
U.S. v. Hay, 685 F.2d 919, 921(5th Cir. 1982)
U.S. v. Addonizio, 449 F.2d 100, 102 (3 Cir. 1970)
Hudgins v. Kemp, 59 US 530 (1855)
Ex-parte Easton, 96 US 68 (1877)
Waley v. Johnston, 316 US 101 (1942)
U.S. v. Camejo, 929 F.2d 610 (11 Cir. 1991)
Thurman v. Judicial Correction Services, Inc., 760 Fed. Appx. 733, 737 (11th Cir.
2019)

Garcia v. American Marine Corp. 432 F.2d 6 (5 Cir. 1970)
United States v. Green, 487 F.2d 1022 (5th Cir. 1973)
Hassenflu v. Pyke, 491 F.2d 1094 (5th Cir. 1974) “reincorporated into Eleventh
Circuit Precedence in Bonner v. City of Prichard, 661 F.2d 1206 (11 Cir. 1981)”
The Panel’s decision also conflicted the following precedence prohibiting the
court from straying outside the four corners of the complaint:

St. George v. Pinellas County, 285 F.3d 1334, 1337 (11th Cir. 2002)
Grossman v. Nationsbank, N.A., 225 F.3d 1228, 1231 (11th Cir. 2000)
THE FOREGOING PRECEDENCE ARE MANDATORY NOT DISCRETIONARY
AND ARE AMENABLE TO MANDAMUS AND PROHIBITION RELIEF.
I.

PANEL OPINION CONSISTS OF MATTERS DEHORS THE RECORD AND
OUTSIDE THE “FOUR CORNERS” OF THE COMPLAINT

45.

The Fifth and Eleventh Circuits and the U.S. Supreme Court rejected this

practice. Hassenflu, 491 F.2d 1094 (5th Cir. 1974) held that “it is inappropriate to
base an appellate opinion on assertions dehors the record,” and that holding is cited
with approval in Camejo, 929 F.2d 610 (11th Cir. 1991). See also Garcia, 432 F.2d 6
(5th Cir. 1970) (disallowing “matters dehors the record”); Ex parte Easton, 96 US 68

16

(“matters dehors the record ... cannot be considered”); Hudgins, 59 US 530 (“evidence

dehors the record cannot be received to impeach the record on appeal”).
46.

Moreover, the opinion is replete with records outside the four corners of the

complaint that was dismissed. The Eleventh Circuit in St. George, 285 F.3d 1334,
1337 (11th Cir. 2002) ['"The scope of the review must be limited to the four corners
of the complaint. Grossman v. Nationsbank, N.A., 225 F.3d 1228, 1231 (11th Cir.
2000)"']; Scelta v. Delicatessen Support Services, Inc., 57 F. Supp. 2d 1327, 1335
(M.D. Fla. 1999) held:
"In deciding a motion to dismiss, the court can only examine the four
corners of the complaint. See Rickman v. Precisionaire, Inc.,902 F.
Supp. 232, 233 (M.D.Fla. 1995). 'The threshold sufficiency that a
complaint must meet to survive a motion to dismiss is exceedingly low.'
Ancata v. Prison Health Serv., Inc.,769 F.2d 700, 703 (11th Cir. 1985)
(citation omitted)." (Italics added)
47.

Indeed, at p. 13 of the Appellants Initial Brief, Appellant had already

pointed out that review is limited to the "four corners of the complaint." The
Answer Brief entirely failed to address that point but nevertheless included a
Statement of the Case and an Appendix that were outside those "four corners."
48.

Sanction To all of these transgressions add the fact that the Answer Brief

still does not point to anything in the instant record that disputes the accuracy
of any portion of the complaint's allegations, in general, or any portion of its
particular allegation that neither Anabella nor her attorney received any
timely notice of the entry or prosecution of the judgment or the amended
judgment. Instead, Appellee seeks to formulate a whole new set of events

17

dehors the record that somehow leaves a false impression that Anabella and
her attorney did have alleged notice.
II.

THE JUDGMENT, AMENDED JUDGMENT, AND APPEAL WERE ALL
PROSECUTED WITHOUT ANY NOTICE TO ANABELLA OR HER
ATTORNEY ROBERT L. MOORE, THEREBY DEPRIVING THE STATE
COURT OF JURISDICTION OVER HER PERSON AND RENDERING THE
ROOKER-FELDMAN DOCTRINE INAPPLICABLE TO HER:

49.

The lower court and Appellate Court incorrectly determined it did not have

jurisdiction of this action as is hereafter set forth. The Court incorrectly cited, in
support of its Rooker­ Feldman ruling, Casale v. Tillman, 558 F.3rd 1258 (11th Cir.
2009) and District of Columbia Court of Appeals v. Feldman, 460 U.S. 462 (1983).

Casale held that doctrine to be applicable to the underlying Georgia state court decision,
because that decision was entered with state tribunal jurisdiction. Feldman (as
part of "Rooker­ Feldman") is otherwise distinguished by the Eleventh Circuit
cases cited in Argument C infra. Feldman also inappositely found that there was
jurisdiction. By contrast, in- the case at bar, under the verified allegations of the
complaint, the relevant state-court judgments were entered without jurisdiction

over Anabella Sourv.
50.

In the appeal from the Final Judgment and Amended Final Judgment,

Anabella was not a party. She had no notice of the entry of those Judgments. She
did not file a notice of appeal. She was not served a copy of the brief. She was not
listed as having been served with the appellate decision or the appellate mandate.
51.

The Third District had no jurisdiction over non-party Anabella Soury. Its

decision was not at all binding on her. Taylor v. Sturgell, 128 S. Ct. 2161, 2174

18

(2008); Association For Disabled Americans, Inc. v. Amoco Oil Co., 211 F.R.D:
457, 472 (S.D.Fla.2002) is directly on point. ln that case, the Court held:

''In re Birmingham Reverse Discrimination Employment Litig., 833
F.2d1492, 1498-99 (11th Cir.1987), cert. granted sub nom., Martin v.
Wilks, 487 U.S. 1204, 108 S. Ct. 2843, 101 L. Ed. 2d

881(1988)(nonparties to consent decree not collaterally estopped);
EEOC v. Huttig Sash & Door Co., 511 F.2d 453, 455 (5th Cir.1975)
(EEOC not privy to private suit and not barred by collateral
estoppel or res judicata); EEOC v. Jacksonville Shipyards, Inc.,
696 F. Supp. 1438, 1441-42 (M.D.Fla.1988) (same)"
52.

Miami Bank & Trust Co. v. Rademacher Co., 5 So.2d 63, 64 (Fla. 1941)

held:

"The notice of appeal, under the rule of Gover v. Mann, 114 Fla. 128,
153 So. 895, and Rabinowitz v. Houk, 100 Fla. 44, 129 So. 501, was
insufficient notice to City National Bank, City of Miami and B. Wall
so as to make them parties to this appeal and give the court
jurisdiction over them in this appeal." (Italics added)
53.

In re Blonder, 2015 WL 5773230, at *11 (Bkrtcy.N.D.Ga. 2015)
likewise held:

"The defendants argued that although they had notice of the case
and were fully apprised of the developments in the case, the
judgment was not binding because at all times the sheriffs attorney
was in full charge of the ligation, they were never asked to defend
the suit, and no notice was given that any judgments rendered
against the sheriff would be conclusive as against them. Moreover,
the attorneys for the deputies argued that defenses were available to
the sheriff which could have been, but were not, raised in the case.
The court held that the judgment was not conclusively binding on
the deputies and their surety, stating: It is an elementary principle of
justice, that n(! one ought to be bound, as to matter of private right, by a
judgment or verdict to which he was not a party, where he could make
no defense, from which he could not appeal, and which may have
resulted from the negligence of another, or may have even been
obtained by means of fraud and collusion. Id. An indemnitor must be
given an opportunity to appear and to participate in the defense of
the suit and it is not enough to be advised of the facts. Id. 'The effect
of the omission of such notice and opportunity is that the judgment
is not binding on the person liable over, who has a right to litigate

19

again every essential fact necessary to support the judgment.' Id. The
court determined that the deputies and their surety had notice of the
pendency of the suits in which judgment was entered against the
sheriff. Id. But because they were never asked to defend the suits,
were never offered permission to defend the suits, and were not

given notice that a judgment against the sheriff would be binding
on them, the court held they were not bound by the judgment. Id."

(Italics added)
III.

ROOKER-FELDMAN DOCTRINE HAS NO APPLICATION TO A STATE
COURT PROCEEDING WHERE ANABELLA HAD NO REASONABLE
OPPORTUNITY TO RAISE HER FEDERAL CLAIMS
OR TO APPEAL,
AND HAS NO APPLICATION TO FLORIDA RULE OF CIVIL PROCEDURE
RULE 1.540(B)(4) MOTION PROCEEDINGS

54. The Sarhan's also cited in their motion for rehearing in Wood v. Orange County,
715 F.2d 1543, 1548 (11th Cir. 1983) cert denied 467 US 1210, which is directly
on point. In that case, the Eleventh Circuit held:
"Second, defendants argue that plaintiffs could have raised their
constitutional claims on appeal from the judgment creating the lien.
Although defendants do not disagree with plaintiffs' allegation that they
did not receive actual notice of the judgment until some 11 months
after the judgment's entry, defendants contend that plaintiffs must be
deemed to have had constructive knowledge of the judgment when it
was entered. The cases cited by defendants in support of their
argument, e.g., Texas Gulf Citrus & Cattle Co. v. Kelley, 591 F.2d
439,440 (8th Cir.1979), are distinguishable. Those cases stand for the
principle that where a party has had notice of proceedings he, may be
held to have had constructive knowledge of the judgment entered
therein. See id.
The party's constructive knowledge of the entry of judgment is
conditioned on his actual notice that proceedings have been
instituted against him. Defendants have cited no cases, and we find
none, for the proposition that a party may be imputed with
constructive knowledge of a judgment entered pursuant to ex-parte
proceedings of which he has no actual notice. Because plaintiffs did

not receive actual notice of the judgment until well after the time for
filing an appeal had elapsed, they lacked a reasonable opportunity to
appeal the judgment. Finally, defendants argue that plaintiffs could

have raised their objections by filing a Fla. R. Civ. P. Rule 1.540
motion to set aside the final judgment creating the lien. Rule 1.540

20

provides that a court, upon a motion of a party made within one year
of entry of judgment, may relieve a party from the judgment on
grounds of, inter alia, inadvertence or surprise. Assuming that claims

such as the plaintiffs are cognizable on a Rule 1.540 motion for relief from
judgment, the Rooker-Feldman bar does not apply.”
55.

A Rule 1.540 motion is not a substitute for appeal, and the court deciding such

a motion does not act as an appellate court. See Pompano Atlantis Condominium

Association v.

Merlino,

415

So. 2d 153,

154 (Fla. 4th DCA.1982). The

rule permits a special kind of collateral attack on, rather than an appeal of, the
judgment. Fiber Crete Homes, Inc. v. Division of Administration, 315 So. 2d 492,
493 (Fla.Dist.Ct.App.1975). Proceedings surrounding Rule 1.540 are considered
separate from those surrounding entry of the judgment. A denial of a Rule 1.540
motion is, for example, appealable not as the decision of a reviewing court but as
a separate judgment in its own right. Woods, 715 F.2d at 1548, held:

Because Rule 1.540 proceedings are not part of the process of appellate
review of the original judgment, it does not matter for purposes of
Rooker that plaintiffs could have raised their claims in such
proceedings. The federal court may perform a role that a state court
deciding a Rule 1.540 motion might also be able to perform. But the
federal court is not usurping the role of a state appellate court because
a state court ,deciding a Rule 1.540 motion does not act as an appellate
court. The district court does not violate Rooker's rationale by deciding
plaintiffs' claims. Rooker simply precludes lower federal courts from
acting as a state appellate court or as the United States Supreme Court
in its capacity as reviewer of state decisions. Rooker is not a
requirement that a plaintiff exhaust all conceivable state remedies; it
does not require that where possible he institute proceedings so that
state courts can consider the plaintiff's federal claims in the first
instance. The important point is that plaintiffs lacked a reasonable
opportunity to raise their claims in the proceedings surrounding
entry of the judgment.

Since plaintiffs did not have a reasonable opportunity to raise their
claims in the state trial court where judgment was entered or on

21

appeal of that judgment, the district court will not usurp the role of
state appellate courts or the Supreme Court by accepting jurisdiction.
The plaintiffs' allegations were not 'inextricably intertwined' with
the state court judgment." (Italics added)
56.

The above-quoted Wood decision is cited with approval by the same

Eleventh Circuit in U.S. v. Napper, 887 F.2d 1528, 1534
(11 Cir. 1989), which held:

''The defendants in the federal suit argued that the Rooker-Feldman
doctrine
precluded
the
federal
action
because
the
defendant/plaintiffs had the opportunity to raise their constitutional
claims at several stages in the state proceedings. The Wood court
agreed to an extent, holding that Rooker-Feldman operates where
the plaintiff fails to raise his federal claims in state court. Wood, 715
F.2d at 1546.”
“The Wood court further held however, that this rule applies only

"where the plaintiff had a reasonable opportunity to raise his federal
claims in the state proceedings. Id. at 1547. If the plaintiff had no such

reasonable opportunity, then the issue is not "inextricably
intertwined with the state action and the district court has original
jurisdiction over it. Id." (Italics added)
57.

Wood or Napper have been cited and adhered to in Gomer ex rel. Gomer v.

Philip Morris Inc., 106 F.Supp.2d 1262, 12671

fu. 5 (M.D. Ala. 2000) and

Thurman v. Judicial Correction Services, Inc., 760 Fed. Appx. 733, 737 (11th
Cir. 2019) (finding that the plaintiff had a reasonable opportunity in state court
to present his arguments). As stated in Paragraph 9 of Plaintiffs' Complaint:
58.

As stated in paragraph 9 of Plaintiff’s Complaint:
"On June 18, 2019 Plaintiffs filed an Emergency Motion for Relief from
Judgment as Void and a Declaration, copy of which are attached
hereto, claiming that the unserved Judgments were denials of due
process and were void. That Motion came on for hearing before Circuit
Court Judge Michael Hanzman on June 20, 2019. At the hearing,
Judge Hanzman precluded counsel for Plaintiff Robert Sarhan from
participating in the oral argument, in which Defendant's counsel was

22

permitted to participate, and thereby denying Plaintiffs Robert
Sarhan due process of law, ruling in advance that Robert Sarhan had
no interest in the arguments raised in the Motion.
That order also determined that the Final Judgment, entered in that
case, would not be "void" even if Anabella Soury's claim that neither she
nor her attorney were not served therewith were true. In fact, neither

Anabella nor her attorney were served with the Final Judgment or the
Amended Final Judgment, Robert Sarhan took an appeal from those
Judgments but did not serve Anabella or her attorney, Anabella did not
participate in that appeal.

However, at page 2 of that order it is wrongly stated that
"Defendants [plural] appealed that Final Judgment" and that the
appellate ruling of affirmance is binding on "Defendant" Anabellaall in violation of her due process rights to be served and to have a _
reasonable opportunity to be heard. The order also ruled in violation of
Anabella's due process rights - that no further motions "collaterally
attacking the Final Judgment or Amended Final Judgment" would
be heard, despite the fact that neither Anabella nor her attorney
were served with those Judgments.
The one-year time limit for filing a Rule l.540(b)(3) fraud-on-the­ court
motion for relief from judgment does not apply to her because of that
lack of service, so that it would be a denial of due process to treat fraud
on-the-court as having been adjudicated as to her."
59.

Attached to the complaint was a copy of Anabella's Declaration, verifying

The allegations of the complaint. The complaint was also verified by Robert
Sarhan. At this stage of the proceedings, the Court is l imited just to the
allegations of the complaint and its attachments. Exhibit , Bharucha v.

Reuters Holdings PLC, 810 F. Supp. 37, 40 (E.D.N.Y.,1993) held:
"The court must limit its analysis to the four corners of the complaint,
see Cortec Industries, Inc. v. Sum Holding, L.P., 949 F.2d 42, 44 (2d
Cir.1991), and must accept plaintiffs' allegations of fact as true
together with such reasonable inferences as may be drawn in its
favor. Stewart v. Jackson & Nash, 976 F.2d 86, 87 (2d Cir.1992);
LaBounty v. Adler, . 933 F.2d 121,123 (2dCir.1991). A complaint
should be dismissed only when it is clear that the plaintiff can

23

prove no set of facts upon which he would be entitled to relief.
Conley v. Gibson, 355 U.S. at 45-6, 78 S. Ct. at 102.'' (Italics
added)
60.

Applying Wood and Napper to Anabella's lack of notice, she had no reasonable

opportunity to present her arguments in the state court proceedings, either on appeal or
in the lower court and Anabella's motions sought post judgment relief under Rule
1.540(b). Therefore, the Rooker-Feldman doctrine had no application to Anabella.
The Court's citation to and reliance on Casale v. Tillman, 558 F.3rd 1258 (11th
Cir. 2009) and District of Columbia Court of Appeals v. Feldman, 460 U.S. 462
(1983), has no application because they did not involve a Rule l.540(b) motion and
did not concern a lack of opportunity to present arguments in state court.
IV.

THE COURT'S RELIANCE ON JUDGE SCOLA'S REMARKS IN REGARD TO
THE REMOVAL OVERLOOKS THE FACT THAT ANABELLA WAS NOT A
PARTY TO THE REMOVAL AND WAS NOT A PARTY TO THE APPEAL TO
WHICH JUDGE SCOLA REFERRED
61.

Moreover, the order of dismissal to which the instant motion for rehearing

is directed additionally relies upon Judge Scola's ruling on Robert Sarhan's
removal. However, here again, Anabella did not participate in that removal and
did not receive any notice thereof, Additionally, Judge Scola's ruling on the
removal was based on the Third District's aforementioned appellate ruling in
the appeal to which Anabella was not a party and was not binding on her. In
any event, that ruling did not cite to the Eleventh Circuit decisions in Wood
or Napper or any of the other cases ·cited herein. Thus, the Court's citation to
and reliance on Judge Scola's ruling on the removal petition is misplaced,

24

improperly binding Anabella to proceedings in which she was a non-party and
did not participate. An extrajudicial reliance on Judge Scola's findings is in
any event erroneous since the motion at issue in the appeal at bar is in the
context of a dismissal of the instant complaint. Bharucha, 810 F. Supp. at 40.
V. ROOKER-FELDMAN DOCTRINE HAS NO APPLICATION TO ANY RULE
l.540(B) PROCEEDING OR TO ANY OTHER CRIMINALLY SANCTIONED
PROCEEDING IN WHICH ROBERT SARHAN OR ANABELLA DID NOT AND
WILL NOT HAVE A REASONABLE OPPORTUNITY TO RAISE THEIR
FEDERAL CLAIMS IN THE STATE COURT
62.

The Court also overlooked Plaintiffs' position, paraphrasing Napper, that

they had “no reasonable opportunity to raise the federal claims in state court”
Judge Hanzman unconstitutionally prohibited Robert Sarhan's attorney from
making any oral argument or rebuttal at the hearing of his Rule l.540(b)(4)
motion for relief from judgment as void, determining that Sarhan had no interest
in that motion, and additionally threatened criminal sanctions against him if he
or his attorney files anything further in the state court proceeding. That is
confined by the verified allegations of the complaint and by Judge Hanzman's
order, also

attached to the complaint. Based on that threat of criminal

sanctions, there absolutely can be no future "reasonable opportunity" to raise
any arguments as to Plaintiffs' federal claims in Florida state court; Judge
Hanzman has unconstitutionally threatened Plaintiffs with criminal sanctions
for any future Rule l.540(b) motion, for any future objections to a certificate of
sale under§ 45.031(3) and (4), Fla. Stat., .and for any future response in opposition
to a later petition for writ of possession. Exhibit C 1 ( E)

25

VI. THE ANSWER BRIEF AND APPELLEE'S APPENDIX ARE
DEHORS THE RECORD, STRAY OUTSIDE THE FOUR CORNERS
OF THE COMPLAINT, AND DO NOT DISPUTE THE
COMPLAINT'S ALLEGATIONS
63.

Appellee' s Answer Brief and Appendix violate several basic rules. First of

all, the Brief and Appendix impermissibly refer to matters entirely dehors the lowercourt record. Sanzone v. Hartford Life Acc. Ins. Co., 519 F. Supp. 2d 1250, 1252
(S.D. Fla. 2007) (review is limited to matters within the record); Waley v.

Johnston, 316 U.S. 101 (1941) (dehors the record items may not be considered on
appeal).The Brief often purports to summarize records without any citation to the
record but occasionally does include multiple curious citations to "R: _," even
though there are no paginated pages include in the record. Indeed, the Brief
makes only a single reference, at p. 11, to Appellants' Appendix ("Exhibit C").
Secondly, in that same regard, the Answer Brief and its Appendix also
impermissibly stray outside the allegations of the "four corners" of the complaint
on this appeal from an order of dismissal of the complaint. St. George v. Pinellas

County, 285 F.3d 1334, 1337 (11th Cir. 2002) ['"The scope of the review must be
limited to the four corners of the complaint. Grossman v. Nationsbank, N.A., 225
F.3d 1228, 1231 (11th Cir. 2000)"']; Scelta v. Delicatessen Support Services, Inc.,
57 F. Supp. 2d 1327, 1335 (M.D. Fla. 1999) held:
"In deciding a motion to dismiss, the court can only examine the four
corners of the complaint. See Rickman v. Precisionaire, Inc.,902 F.
Supp. 232, 233 (M.D.Fla. 1995). 'The threshold sufficiency that a
complaint must meet to survive a motion to dismiss is exceedingly low.'
Ancata v. Prison Health Serv., Inc.,769 F.2d 700, 703 (11th Cir. 1985)
(citation omitted)." (Italics added)

26

64.

Indeed, at p. 13 of the Initial Brief, Appellant had already pointed

out that review is limited to the "four comers of the complaint." The Answer
Brief entirely failed to address that point but nevertheless included a Statement
of the Case and an Appendix that were outside those "four corners."
VII.

65.

THE ANSWER BRIEF'S ARGUMENTS ARE MISDIRECTED
AWAY FROM APPELLANT'S ARGUMENTS AND THEIR
SUPPORTING CITATIONS AND THEREFORE NO REPLY IS
DUE
The Answer Briefs Arguments are constructed, based on those sets of

events dehors the record - dehors the "four corners," the allegations of the
complaint and Appellants' accompanying Appendix. There is no reason to respond
to those bogus Arguments. Those Arguments are not keyed into the Arguments set
out in the Initial Brief. By not responding, those Arguments must be deemed as
accepted.
67.

Appellee does not focus on the legal consequences of the alleged lack of

notice, the resulting lack of state-court jurisdiction, and the resulting
inapplicability of the Rooker-Feldman Doctrine, analyzed in Appellants'
Argument I or to its cited precedents.
In like manner, Appellee did not respond to Appellants' Argument
II, that the Rooker-Feldman doctrine does not apply to Rule l .540(b)
motion proceedings or where Anabella allegedly had no reasonable
opportunity to raise her federal claims or to its cited precedents.
In regard to Appellants' Argument III, concerning the Court's
reliance on Judge Scola's remarks, nowhere in the Answer Brief is
there any mention made of those remarks.
68.

Already noted is the absence of any Answer Brief response to Appellants'

27

Argument IV, concerning the inapplicability of the Rooker-Feldman Doctrine to
Rule l .540(b) motion proceedings and to Appellants' cited case precedents.
69.

The Answer Brief does in fact not respond to any of Appellants' citations.

Appellee's Table of Citations list only one of those citations , Casale v. Tillman, 558
F.3d 1258, 1260(11th Cir. 2009), and mistakenly lists it at pages "18" and "19" of
the Answer Brief, but those pages have no such citation nor do any of the other
pages of the Brief have any such citation.
(3)

THE ELEVENTH CIRCUIT COURT OF APPEALS ORDERS CREATES
EXCEPTIONAL CIRCUMSTANCES IN WARRANTING WRIT OF
MANDAMUS AND WRIT OF PROHIBITION
The Panel has failed to address serious Constitutional Rights Violations under

the 14th Amendment and the denial of “due process” where the State of Florida has
deprived Robert Sarhan and Anabella Soury their liberty and their property, without
due process of law and they were denied equal protection of the laws.
The Panel and the lower court incorrectly determined it did not have
jurisdiction of this action due to the Rooker-Feldman Doctrine. The Judgment,
Amended Judgment, and Appeal were all prosecuted without any notice to Anabella
or her attorney, Robert L. Moore, thereby depriving the state court of Jurisdiction
over her person and rendering the Rooker-Feldman Doctrine Inapplicable.
The Panels opinion consists of matters dehors the record and outside the “four
corners” of the complaint, where the Appellee’s attorney submitted a 166-page
Appendix that was dehors the record and his Answer Brief was outside of the “four
corners” of the complaint. The Fifth and Eleventh Circuits and the U.S. Supreme

28

Court rejected this practice and held that “it is inappropriate to base an appellate
opinion on assertions dehors the record.”
The Eleventh Circuit improperly placed it imposition of sanctions on its excursion
outside the record. All 166-page of the Appellee’s Appendix are dehors the record.
CONCLUSION
Wherefore, we pray that this U.S. Supreme Court will issue the Writ if Mandamus
and Prohibition mandating the orders of the Eleventh Circuit and require them to
stay within the boundaries of the record and not to stray out of the “four corners” of
the complaint and require application of federal jurisdiction to the district court
proceeding and vacate the dehors the record imposition of sanctions.

Respectfully Submitted,
ARTHUR J.MORBURGER
Attorney for Appellants
19 W. Flagler St. Ste. 404
Miami, FL 33130
Tel. No. 305-374-3373
Amorburger@bellsouth.net
Fl . Bar No. 157287
Isl Arthur J. Morburger

29

CERTIFICATE OF COMPLIANCE
I, Arthur J. Morburger, Appellate Counsel for Robert Sarhan and Anabella Soury
hereby certify that, according to the word-count tool in Microsoft Word, the Writ of
Mandamus and Prohibition consists of 8961 words, including footnotes and excluding
the sections enumerated by Rule 33. l(d). The Brief therefore complies with Rule 33.
l(g).
ARTHUR J.MORBURGER
Attorney for Appellants
19 W. Flagler St. Ste. 404
Miami, FL 33130
Tel. No. 305-374-3373
Amorburger@bellsouth.net
Fl . Bar No. 157287
Isl Arthur J. Morburger
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that the foregoing US Supreme Court Brief and
Appendix has been emailed to Raul Gastesi, Jr. at rgastesi@gastesi.com on this 27
Day of April 2020.
ARTHUR J.MORBURGER
Attorney for Appellants
19 W. Flagler St. Ste. 404
Miami, FL 33130
Tel. No. 305-374-3373
Amorburger@bellsouth.net
Fl . Bar No. 157287
_Isl Arthur J. Morburger

30

